Report No. D-2008-051       February 19, 2008




 Surface Deployment and Distribution Command
       Hawaii/Guam Shipping Agreement
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms
FAR                   Federal Acquisition Regulation
IG                    Inspector General
RDC                   Regional Domestic Contract
SDDC                  Military Surface Deployment and Distribution Command
USC                   Universal Service Contract
USTRANSCOM            United States Transportation Command
                             INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704




                                                                         Februmy 19, 2008

MEMORANDUM FOR COMMANDER, UNITED STATES TRANSPORTATION
                 COMMAND

SUBJECT: Report on Surface Deployment and Distribution Command Hawaii/Guam
         Shipping Agreement (Report No. D-2008-051)


        Weare providing this report for review and comment. In preparing the final
report, we considered comments on the draft report from the Commander, Militmy
Surface Deployment and Distribution Command.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly,
The Militmy Surface Deployment and Distribution Command comments were partially
responsive. As a result of management comments, we revised our draft report
recommendation and redirected the recommendation to the Commander, United States
Transportation Command. Therefore, we request that the Commander, United States
Transportation Command provide comments by March 20, 2008.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudACM@dodig.mi1. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Benjamin A. Mehlman at (703) 604-9291 (DSN 664-9291) or Mrs. Susan J.
Lippolis at (703) 604-9081 (DSN 664-9081). See Appendix F for the report distribution.
The team members are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:



                               ~~-   Assistant Inspector General
                                 Acquisition and Contract Management
               Department of Defense Office of Inspector General
Report No. D-2008-051                                                 February 19, 2008
   (Project No. D2006-D000AB-0236.001)

               Surface Deployment and Distribution Command
                     Hawaii/Guam Shipping Agreement

                                 Executive Summary

Who Should Read This Report and Why? Personnel involved in procuring and
managing commercial sealift services should read this report because it discusses issues
involving the Surface Deployment and Distribution Command sealift procurement
decision making process.

Background. We began this audit as a result of information obtained during our audit of
“United States Transportation Command Compliance with DoD Policy on the Use of
Commercial Sealift,” (DoD Inspector General Report No. D-2007-105, June 21, 2007).
Specifically, we obtained information at the Military Surface Deployment and
Distribution Command (SDDC) that indicated DoD is not obtaining the most economic
rates for shipments between the West Coast of the United States (West Coast) and the
islands of Hawaii and Guam because those shipments are not procured through
competitive procedures.

Historically, the United States Transportation Command and SDDC excluded shipments
between the West Coast and Hawaii and Guam from Federal Acquisition
Regulation (FAR) contracts due to congressional concerns that a head-to-head
competition of a FAR contract might restrict the commercial carrier support to the islands
and increase commercial rates, as a result of the decrease in DoD revenue. In the past,
SDDC allowed the two main carriers serving Hawaii and Guam to file noncompetitive
tariffs. The tariff rates were essentially the same for each carrier. The majority of SDDC
shipments are covered under the Regional Domestic Contract or the Universal Service
Contract, which are both FAR contracts. Shipments originating from the continental
United States are covered under a Regional Distribution Contract and foreign shipments
are covered under a Universal Service Contract.

As an alternative to utilizing commercial tariffs for shipments between the West Coast
and Hawaii and Guam, SDDC developed the Surface Deployment and Distribution
Command/Carrier Freight Ocean Traffic Uniform Agreement for Hawaii/Guam. This
agreement went into effect on March 1, 2007, and provides carriers with standard
guidance for moving cargo by vessel shipments between the West Coast and Hawaii and
Guam. The agreement also locks in shipping rates for various types of cargo for a 60-day
period and establishes performance standards. The objective of this new agreement was
to obtain better shipping rates through competition.

Results. SDDC did not obtain competitive rates under the Hawaii/Guam shipping
agreement and SDDC and participating carriers have not signed this agreement.
As a result, there is no assurance that DoD obtained fair and reasonable rates for
shipments between the West Coast and Hawaii and Guam and that participating carriers
are liable for poor performance. We identified an internal control weakness in that
SDDC did not follow the FAR for obtaining full and open competition through the use of
competitive procedures. The Commander, United States Transportation Command
should direct SDDC, by October 1, 2008, to either:

   •   modify the Hawaii/Guam shipping agreement to discontinue the process of
       allowing carriers to view each others’ rates by eliminating the two-cycle bid
       process, sign the agreement, and obtain all participating carrier signatures to the
       agreement or, alternatively

   •   add the Hawaii and Guam shipments to an existing FAR-based contract such as
       the Regional Distribution Contract or the Universal Service Contract. A FAR
       contract will improve internal control weaknesses in competition, ensure
       performance standards are enforceable, and eliminate the administrative burden
       associated with the current agreement.

Management Comments and Audit Response. The Commander, Military Surface
Deployment and Distribution Command nonconcurred with the intent of the finding that
SDDC did not obtain competitive rates and is not following FAR competitive
procurement requirements for the Hawaii/Guam shipping agreement. The commander
noted that there was no substantial evidence in the report for a conclusion that the
Hawaii/Guam shipping agreement is not in the best interest of the Government. In
addition, the commander stated that there was no basis for drawing a conclusion that the
Hawaii/Guam shipping agreement did not contain competitive procedures. The
commander concurred with the recommendation in principle but noted that SDDC past
attempts to bring the Hawaii/Guam shipping routes under a FAR contract were stopped
by congressional delegation concerns.

While the audit report does not state that the Hawaii/Guam shipping agreement was not
in the best interest of the Government, it does note that SDDC did not obtain competitive
rates under the agreement, nor have SDDC and the participation carriers signed the
agreement. We continue to believe that placing shipments between the West Coast of the
United States and islands of Hawaii and Guam under a FAR-based contract is the best
solution to assure competition and fair and reasonable pricing. However, if the
Hawaii/Guam shipping agreement was signed by the parties and binding, and included
certain changes to discontinue the two-cycle bid process that allows carriers to view each
others’ rates, the agreement would greatly improve the opportunity to obtain competition
through the use of competitive procedures and would assure that performance standards
were enforceable and that carriers could be held accountable for poor performance.

As a result of the Commander, SDDC comments, we revised the draft report
recommendation and redirected the recommendation to the Commander, United States
Transportation Command. See the Finding section and Appendix E for a discussion of
management comments. See the Management Comments section of the report for the
complete text of the document. We request the Commander, United States
Transportation Command comment on revised recommendations by March 20, 2008.




                                             ii
Table of Contents

Executive Summary                                                       i

Background                                                             1

Objective                                                              2

Review of Internal Controls                                            2

Finding
     Competition Under the Hawaii/Guam Shipping Agreement               3


Appendixes
     A. Scope and Methodology                                           8
         Prior Coverage                                                 9
     B. Congressional Letter to United States Transportation Command   10
     C. United States Transportation Command Response                  12
     D. Hawaii-Guam Agreement Break-Bulk and Container Rates           14
     E. Management Comments on the Finding and Audit Response          16
     F. Report Distribution                                            20

Management Comments
     Surface Deployment and Distribution Command                       23
Background
    We began this audit as a result of information obtained during our audit of
    “United States Transportation Command Compliance with DoD Policy on the
    Use of Commercial Sealift,” DoD Inspector General (IG)
    Report No. D-2007-105, issued June 21, 2007. Specifically, we obtained
    information at the Surface Deployment and Distribution Command (SDDC) that
    indicated DoD may not be obtaining the most economic rates for shipments
    between the West Coast of the United States (West Coast) and Hawaii and Guam
    because those shipments are not procured through competitive procedures.

    The United States Transportation Command (USTRANSCOM) and SDDC
    excluded shipments between the West Coast and the islands of Hawaii and Guam
    from a Federal Acquisition Regulation (FAR) contract due to congressional
    concerns that competition between carriers under a FAR contract might put a
    carrier out of business, restrict commercial carrier support to the islands, and
    increase commercial rates. The majority of SDDC shipments are covered under
    the Regional Domestic Contract or the Universal Service Contract, which are both
    FAR contracts. The Regional Domestic Contract (RDC) covers all shipments
    between continental U.S. points and ports to Puerto Rico, the U.S. Virgin Islands,
    and Alaska. Foreign shipments are covered under a Universal Service Contract
    (USC).

    Jones Act. Shipments between the West Coast and Hawaii and Guam are
    covered under the Jones Act, also known as the Merchant Marine Act of 1920.
    The Jones Act (section 55102, title 46, United States Code) requires the use of
    U.S. vessels to transport merchandise between U.S. ports. The Jones Act also
    requires these vessels be wholly owned by citizens of the U.S.

    Congressional Interest. In the past, SDDC allowed the two main carriers
    serving Hawaii and Guam to file noncompetitive tariffs for DoD traffic. The
    tariff rates were essentially the same for each carrier. On May 18, 2006,
    personnel from USTRANSCOM and SDDC met with staff members from the
    Hawaiian congressional delegation. The purpose of this meeting was to discuss
    SDDC’s plan to move from a tariff-based system to a competitive FAR contract
    for shipments between the West Coast and Hawaii and Guam. Subsequent to this
    meeting the Hawaiian congressional delegation forwarded a letter, dated
    June 7, 2006, to the Commander, USTRANSCOM, outlining its concerns
    regarding moving to a FAR contract, and requested additional information (see
    Appendix B). On July 7, 2006, the Commander, USTRANSCOM responded to
    Senator Daniel Inouye providing additional information and stating he was
    confident a FAR contract was appropriate to ensure adequate competition for
    rates, services, and standardized business processes, while benefiting both DoD
    and the people of Hawaii (see Appendix C). The same letter was sent to
    Senator Daniel Akaka and Congressman Neil Abercrombie. As of February 5,
    2008, the Hawaiian delegation had not commented further on this issue.

    Shipping Agreement. As an alternative to utilizing commercial tariffs for
    shipments between the West Coast and Hawaii and Guam, SDDC developed the


                                        1
     Surface Deployment and Distribution Command/Carrier Freight Ocean Traffic
     Uniform Agreement for Hawaii/Guam (Hawaii/Guam shipping agreement). This
     agreement went into effect on March 1, 2007, and provides carriers with standard
     guidance for moving cargo by vessel shipments between the West Coast and
     Hawaii and Guam. The agreement also locks in shipping rates for various types
     of cargo for a 60-day period and establishes performance standards. The
     objective of this new agreement was to obtain better shipping rates through
     competition and add performance objectives. The agreement was posted on the
     SDDC Web site and any Jones Act carrier interested in participating can submit
     bids.

     USTRANSCOM Purpose and Structure. DoD Directive 5158.04, “United
     States Transportation Command,” July 27, 2007, states that the Commander,
     USTRANSCOM has the authority to coordinate DoD transportation requirements.
     Officially, USTRANSCOM is responsible for creating and implementing
     deployment and distribution solutions during times of peace and war for DoD
     missions. USTRANSCOM is divided into three major component commands.
     The component commands include SDDC, the Military Sealift Command, and the
     Air Mobility Command. SDDC was the main focus of this audit.

     SDDC provides commercial ocean liner service and traffic management services
     to deploy, sustain, and redeploy U.S. forces on a global basis. The command is
     also responsible for surface transportation and is the interface between DoD
     shippers and the commercial transportation carrier industry.


Objective
     The objective of this audit was to determine whether SDDC’s use of non-FAR
     methods for shipments between the West Coast and Hawaii and Guam was the
     most economical means to the Government in achieving fair and reasonable rates
     and service performance.


Review of Internal Controls
     We identified internal control weaknesses for SDDC as defined by DoD
     Instruction 5010.40, “Managers Internal Control (MIC) Program Procedures,”
     January 4, 2006. SDDC did not follow the FAR for obtaining full and open
     competition through the use of competitive procedures. Implementing
     recommendations contained in this report will correct the internal control
     weaknesses we identified.




                                         2
                   Competition Under the Hawaii/Guam
                   Shipping Agreement
                   SDDC did not obtain competitive rates under the Hawaii/Guam shipping
                   agreement, nor have SDDC and the participating carriers signed the
                   Hawaii/Guam shipping agreement. This occurred because SDDC is not
                   following FAR competitive procurement requirements, and the SDDC and
                   participating carriers could not agree on terms of the agreement. As a
                   result, there is no assurance that performance standards under the
                   agreement are enforceable and that DoD obtained fair and reasonable rates
                   for shipments between the West Coast and Hawaii and Guam.


Criteria
           The “Competition in Contracting Act of 1984,” as implemented in FAR Part 6,
           “Competition Requirements,” prescribes policies and procedures to promote full
           and open competition. FAR Subpart 6.101, “Policy,” states that, in accordance
           with title 10, section 2304 and title 41, section 253 of the United States Code,
           contracting officers shall promote and provide for full and open competition in
           soliciting offers and awarding Government contracts. In addition, FAR
           Subpart 6.101 states that contracting officers shall provide for full and open
           competition through the use of competitive procedures such as sealed bids,
           competitive proposals, and other combinations of competitive procedures. FAR
           Part 15.402, “Pricing Policy,” requires contracting officers to purchase supplies
           and services at fair and reasonable prices.


Rates Under the Hawaii/Guam Shipping Agreement
           SDDC did not obtain competitive rates under the Hawaii/Guam shipping
           agreement, nor have SDDC and the participating carriers signed the agreement.

           Establishing Rates. Under the agreement, rates are updated every 60 days.
           Within this 60-day period there are two bid cycles. Beginning in mid-November
           2006, carriers obtained access to the Carrier Analysis and Rate Evaluation
           System 1 in order to input their rates for the first iteration of bids. Once the first
           iteration of bids is complete, the carriers are able to view rates that are accepted
           and either lower or match their price to the other carriers during the second
           iteration for their best and final offer. SDDC evaluates rates for fairness and
           reasonableness. Rates for container shipments found to be fair and reasonable
           went into effect on March 15, 2007.

1
    The Carrier Analysis and Rate Evaluation System allows carriers to submit bids and is used by SDDC to
    determine whether bids are fair and reasonable.



                                                     3
           Carrier Rates Under the Agreement. We reviewed break-bulk 2 and container
           rates between the West Coast and Hawaii and Guam. Our review showed that
           although carriers submitted competitive rates under the first bid cycle, rates have,
           for the most part, remained the same, and in most cases, carriers just matched
           each others’ rates. According to SDDC officials, carriers have not increased
           prices since the agreement was implemented, fearing other participating carriers
           would get the cargo based upon price. SDDC officials also stated that if carriers
           had to bid in a FAR environment without knowing what the other competitors’
           prices were, SDDC would most likely obtain lower prices because the carriers
           could not gauge competitors prices. Appendix D shows that, for the most part,
           carriers are just matching each others’ rates under the agreement.

           Determining Fair and Reasonable Prices. To determine whether prices
           received under the agreement were fair and reasonable, SDDC planning officials
           compared carriers’ bids with independent Government cost estimates and with
           other carriers’ offers. The carrier’s rate is accepted if it is priced within a
           designated SDDC percentage of the lowest offer and the independent Government
           cost estimate. If the rate exceeds the independent Government cost estimate and
           the lowest offer by the designated SDDC percentage, the rate is considered high
           and the carrier is allowed to change its offer during the second bid cycle. The
           review under the second bid cycle is the same; however, carrier bids higher than
           the percentage margin of the lowest offer and the independent Government cost
           estimate are generally rejected. FAR Part 15 states this price analysis technique is
           preferred if adequate price competition formed the basis for previous prices.
           Because previously used tariff rates were not competitive, and the rates obtained
           under the agreement are not competitive, SDDC cannot be assured that the prices
           obtained under the agreement are fair and reasonable.

           Signing the Agreement. At the time of our review, neither SDDC nor the
           carriers had signed the agreement. According to the Deputy to the Commander,
           SDDC, the carriers have not signed the agreement because they wanted the
           agreement to be in effect for a 10-year period and SDDC would not agree. SDDC
           planning officials stated that although the agreement has not been signed, all
           parties agreed to move forward with implementing the agreement.

           Performance Standards Under the Agreement. Under the agreement SDDC
           has incorporated some of the same performance objectives that are incorporated
           in its USC and RDC contracts. Performance objectives include standards for
           meeting the required delivery date, submitting operational reports, and various
           reports that allow SDDC to track shipments. In addition, the agreement provides
           penalties for not meeting the required delivery date. However, because neither
           SDDC nor participating carriers have signed the agreement, it is unclear whether
           these performance standards are enforceable.




2
    Break-bulk cargo is any loose material that is not containerized.



                                                        4
Competitive Procurement Requirements
    SDDC did not follow FAR competitive procurement requirements for shipments
    between the West Coast and Hawaii and Guam.

    Federal Acquisition Regulation Requirements. FAR Part 6 prescribes policies
    and procedures to promote full and open competition in the acquisition process
    and to provide for full and open competition through the use of competitive
    procedures, such as sealed bids, competitive proposals, and other combinations
    that are designed to obtain better services and lower prices. None of these
    competitive procedures allow contractors to view each others’ proposals or rates.
    Because carriers under the Hawaii/Guam shipping agreement are able to view and
    match each others’ rates, these rates are not competitive and are therefore not in
    compliance with FAR Part 6. For example, one carrier waited until other carriers
    submitted their initial bids, and then matched these carriers when submitting its
    best and final offer in the second iteration. In addition, during the May bid cycle,
    this same carrier increased its rates to match the higher rates submitted by another
    carrier. Allowing the carriers to view and change rates between bid rounds
    negates any competitive benefit.

    Adding Hawaii and Guam to RDC and USC Contracts. To determine the
    feasibility of incorporating the Hawaii/Guam shipping routes into the RDC and
    USC, we contacted the administrative contracting officers for these contracts.
    According to them, the Hawaii and Guam shipping lanes could easily be
    incorporated into these contracts. RDC and USC administrative contracting
    officers also stated incorporating these routes into the RDC and USC contracts
    would eliminate the administrative burden associated with the agreement.


Competition and Performance
    SDDC cannot be assured that competitive rates are obtained under the agreement.
    In addition, because the agreement has not been signed, there is no assurance that
    performance standards are enforceable and that carriers can be held accountable
    for poor performance. Allowing carriers to view each others’ rates and change
    their own rates before they are finalized negates the benefits of direct competition
    and reduces the likelihood that rates obtained under the agreement are fair and
    reasonable.

    In addition, in August 2004, the Logistics Management Institute, under a
    contractual tasking from SDDC, examined strategic distribution business
    arrangements and performance within the Pacific area of operations to identify
    opportunities for improvement. The report found that the cost of service to
    Hawaii was high when compared with costs for movement to the Far East under
    SDDC contracts that are FAR-based. The report recommended that SDDC add
    the Hawaii route to the RDC contract, and the Guam route to the USC contract,
    concluding that this would benefit the Government by providing performance-
    based service under contractual terms and direct competition could yield less
    expensive service to DoD shippers. We believe that including the Hawaii and


                                         5
    Guam shipping routes under the existing USC and RDC contracts should result in
    less expensive service, ensure performance standards are enforceable, and
    eliminate the administrative burden associated with the current agreement.


Management Comments on the Finding and Audit Response
    The Commander, SDDC did not concur with the finding statements that SDDC
    did not obtain competitive rates and is not following FAR competitive
    procurement requirements for the Hawaii/Guam shipping agreement. We
    disagree with the commander’s statements and believe the finding factually
    presents SDDC actions regarding competitive rates and FAR competitive
    procurement requirements. See Appendix E for a summary of individual SDDC
    management comments and the Audit Response to those comments.


Recommendations, Management Comments, and Audit
  Response
    Revised and Redirected Recommendation. As a result of management
    comments, we revised our draft report recommendation and redirected the
    recommendation to the Commander, USTRANSCOM.

    We recommend the Commander, United States Transportation Command
    direct the Surface Deployment and Distribution Command by October 1,
    2008, to either:

       1. Modify the Surface Deployment and Distribution Command/Carrier
          Freight Ocean Traffic Uniform Agreement to discontinue the process
          of allowing carriers to view each others’ rates by eliminating the two-
          cycle bid process under the agreement. Sign the Surface Deployment
          and Distribution Command/Carrier Freight Ocean Traffic Uniform
          Agreement for Hawaii/Guam. In addition, obtain all participating
          carrier signatures to the Surface Deployment and Distribution
          Command/Freight Ocean Traffic Uniform Agreement for
          Hawaii/Guam, or,

       2. Place shipments between the West Coast of the United States and the
          islands of Hawaii and Guam under a Federal Acquisition Regulation-
          based contract.

    Military Surface Deployment and Distribution Command Comments. The
    Commander, Military Surface Deployment and Distribution Command concurred
    in principle with a draft report recommendation that she add Hawaii and Guam
    shipments to the existing RDC and USC contracts but noted that past SDDC
    attempts to bring the Hawaii/Guam shipping routes under a FAR contract were
    stopped by Hawaii congressional delegation concerns. The commander also
    noted that acquisition authority for the RDC and USC contracts has been
    transferred to SDDC’s parent command, USTRANSCOM.


                                       6
Audit Response. As a result of the Commander, SDDC comments to the
recommendation and to the report finding, we revised our draft report
recommendation and redirected it to the Commander, USTRANSCOM. We
continue to believe that placing shipments between the West Coast of the United
States and the islands of Hawaii and Guam under a FAR-based contract is the best
solution to assure competition and fair and reasonable pricing. However, if the
Hawaii/Guam shipping agreement was signed by the parties and binding, and
included certain changes to discontinue the two-cycle bid process of allowing
carriers to view each others’ rates, the agreement would greatly improve the
opportunity to obtain full and open competition through the use of competitive
procedures and would assure that performance standards were enforceable and
carriers could be held accountable for poor performance. We request the
Commander, USTRANSCOM provide comments on these recommendations by
March 20, 2008.




                                   7
Appendix A. Scope and Methodology
   We conducted this performance audit from June through December 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We performed audit work to determine whether SDDC was obtaining competitive
   shipping rates between the West Coast and Hawaii and Guam. We collected,
   reviewed, and analyzed documents dated August 2004 through September 2007.
   Specifically we reviewed:

          •   the SDDC/Carrier Freight Ocean Traffic Uniform Agreement for
              Hawaii/Guam, March 2007;

          •   carrier rates dated March 15 through September 1, 2007;

          •   bid evaluation sheets for bid cycles one through four under the
              agreement;

          •   Hawaii/Guam Customer Advisory Notice, February 21, 2007; and

          •   congressional correspondence with USTRANSCOM on June 7, 2006,
              and July 7, 2006.

   We also contacted the staffs of the Deputy Under Secretary of Defense for
   Logistics and Material Readiness, USTRANSCOM, and SDDC. We contacted
   those staffs, as applicable, to:

          •   evaluate rates submitted by carriers under the agreement,

          •   obtain feedback as to carrier performance and rates under the
              agreement,

          •   determine the rationale for not including the Hawaii/Guam shipping
              lane in existing FAR contracts,

          •   obtain feedback regarding the feasibility of including Hawaii and
              Guam in the RDC and USC contracts, and

          •   review performance standards under the agreement.

   Because SDDC could not provide documentation to compare previous West
   Coast and Hawaii and Guam tariff shipping rates with rates under the agreement,
   we could not verify SDDC claims that rates have remained the same under the
   agreement. In addition, we did not evaluate the adequacy of competitive
   procedures for the RDC or USC because they were not the focus of this audit.


                                       8
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. We did not require technical assistance to perform
    this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the “DoD Contract Management” high-risk area.


Prior Coverage
    During the last 5 years, the DoD IG has issued one report discussing United
    States Transportation Command use of commercial sealift. Unrestricted DoD IG
    reports can be accessed at http://www.dodig.mil/audit/reports.

DoD IG
    DoD IG Report No. D-2007-105, “United States Transportation Command
    Compliance With DoD Policy on the Use of Commercial Sealift,” June 21, 2007




                                        9
Appendix B. Congressional Letter to United
            States Transportation Command




                    10
11
Appendix C. United States Transportation
            Command Response




                    12
13
Appendix E. Management Comments on the
            Finding and Audit Response
   SDDC Comments on the Report Conclusion. The Commanding General,
   SDDC stated she did not find substantial evidence supporting the report’s
   conclusion that the agreement was not in the best interest of the Government.
   Specifically she stated that although SDDC historically uses Federal Acquisition
   Regulation-based contracts, efforts to place the Hawaii/Guam shipping lanes
   under a FAR contract have been met with congressional and carrier opposition.
   She also stated that the decision to establish the agreement, rather than use a FAR
   contract was a collaborative decision made by SDDC, USTRANSCOM, the
   ocean carriers, and the congressional delegation.

   Audit Response. While the audit report does not state that the Hawaii/Guam
   shipping agreement was not in the best interest of the Government, it does note
   that SDDC did not obtain competitive rates under the agreement, nor have SDDC
   and the participating carriers signed the agreement. As the agreement has not
   been signed by the SDDC, USTRANSCOM, or the carriers, there is no assurance
   that performance standards are enforceable and that carriers can be held
   accountable for poor performance. Thus, the commitment of the Government and
   the carriers to the collaborative decision noted by the SDDC Commander is
   questionable.

   SDDC minutes from a May 18, 2006, meeting with SDDC officials, ocean carrier
   representatives, and staff from the offices of Senator Inouye, Senator Akaka, and
   Representative Abercrombie indicate that USTRANSCOM and SDDC officials
   fully supported moving Hawaii/Guam ocean services from tariffs to a FAR-based
   contract. SDDC officials noted in the meeting that the goal of the command is to
   “seek to create an environment that allows true competition.” SDDC officials
   also noted that the current tariff system allows for “me too pricing, permitting one
   carrier to set a tariff rate, while allowing the other carriers to match the rate,
   which doesn’t meet the definition of true competition” and that the carriers offer
   the same rates and rates are not locked in. Appendix D clearly demonstrates that
   rates under the agreement are not competitive, and that, for the most part, carriers
   are either matching each others’ rates, or, in some cases, increasing their rates
   after viewing each others’ rates during the first iterations of bids. Clearly
   SDDC’s goal of seeking an environment that allows true competition is not being
   met under the agreement as presently implemented. In addition, while we did not
   state that the agreement was not in the Government’s best interest, it is certainly
   questionable whether any agreement that allows one contractor to raise its price
   simply because another contractor’s price is higher would be in the Government’s
   best interest.

   SDDC Comments on Competitive Procedures. The Commander SDDC stated
   the report does not support the conclusion that the agreement does not have
   competitive procedures. In addition, the Commander stated that carrier rates
   offered to the DoD must by law (section 2631, title 10, United States Code) be
   equal to or less than those charged to their commercial customers.



                                        16
Audit Response. As shown in Appendix D, allowing carriers to view each
others’ rates during the first iteration of bids has resulted in carriers simply
matching each others’ rates. If the participating carriers were truly competing, we
believe that they would not be matching each others’ rates, in most cases dollar
for dollar. Section 2631, title 10, United States Code states that carriers’ rates
may not be higher than rates for transporting like goods for private persons, not
commercial customers. SDDC does not ensure that rates offered to DoD are
equal to or less than those charged to commercial customers.

The SDDC Deputy Director for Business Processes stated that because
commercial carriers’ rates are structured differently, and that most large carriers
receive volume discounts, such a comparison is not feasible.

SDDC Comments on Competitive Rates Under the Hawaii/Guam Shipping
Agreement. The SDDC Commander stated that under the non-FAR agreement,
60-day rates are solicited competitively and independently from three carriers
(Matson, Horizon, and Pasha) using the same automated system as the FAR
contracting process. In addition, the commander stated that all carrier rates
offered to the DoD must by law (section 2631, title 10, United States Code) be
equal to or less than those charged to their commercial carriers.

Audit Response. SDDC could not demonstrate any tangible benefits resulting
from implementing the non-FAR agreement. Although rates are obtained from
the carriers every 60 days, allowing the carriers to view and match each others’
rates does not provide for full and open competition as outlined in the FAR. In
addition, SDDC does not perform an evaluation to determine whether carrier rates
are equal to or less than those charged to their commercial carriers. At the time of
our review, SDDC officials stated that such an evaluation is not feasible because
commercial carriers’ rates are structured differently and most large carriers
receive volume discounts. As evident in Appendix D, rates under the
Hawaii/Guam shipping agreement have not resulted in improved rates, and
carriers are simply matching each others’ rates.

SDDC Comments on FAR Competitive Procurement Requirements. The
Commander, SDDC stated that FAR Part 47 allows an exception for
transportation services purchase by transportation warrants, bills of lading, and
similar transportation forms.

Audit Response. Although we agree FAR Part 47 allows transportation services
to be purchased through the use of other contract vehicles, the SDDC process for
obtaining these rates is not competitive. Again, we fail to see how competitive
rates are being obtained when, after four rounds of bids under the agreement,
carriers for the most part have matched each others’ rates, dollar for dollar.

SDDC Comments on Performance Standards. The Commander SDDC stated
that performance standards are monitored and enforced by the Carrier Services
Branch, the same office that monitors the ocean FAR contracts.

Audit Response. As stated in the report, neither SDDC nor the participating
carriers have signed the agreement. Therefore, the extent in which SDDC’s
Carrier Services Branch can enforce the penalties contained in the agreement for
poor carrier performance is questionable.

                                     17
SDDC Comments on Determining Fair and Reasonable Prices. The
Commander SDDC disagreed with publishing the specific margin percentage
used to determine fair and reasonable prices.

Audit Response. We agree SDDC’s margin for determining fair and reasonable
prices needs to be protected; therefore, we have removed all references to the
specific margin percentage in the final report.

SDDC Comments on Competitive Procurement Requirements. The
Commander, SDDC stated that although carriers are able to view their
competitors’ initial offers, their best and final offers are submitted in a closed bid
system and that carriers can choose to lower or raise their rates. The commander
also stated that allowing the carriers to view the initial bids was a compromise
solution as carriers wanted the option of changing their rate daily similar to the
tariff and tender process, and that it was accepted commercial transportation
practice to know what their competitors are charging. In addition, the commander
stated because the Hawaii traffic is not based on a long-term, locked-in contract,
it allowed for periodic revision of rates; therefore, there was no competitive
benefit in keeping rates secret.

Audit Response. We disagree that there is no competitive benefit to allowing
carriers to view and revise their rates after viewing their competitors’ rates. As
noted in the draft report, carriers have, for the most part, matched each others’
rates through four bid cycles. One carrier waited until the final iteration to submit
a bid, and then exactly matched the other two carriers’ bids. This reluctance by
the carriers to participate in a closed bid system shows they are unwilling to
compete based on price. We believe carriers will continue to match each others’
rates if they are able to view their competitors’ bids prior to final submission.
According to the SDDC Deputy Director for Business Processes, the carriers have
stated they do not want to compete with each other on price. The SDDC Deputy
Director for Business Processes also stated that if carriers had to bid in a FAR-
based environment without knowing each others’ rates, SDDC would most likely
get lower prices because the carriers would have no idea whether their price
would win them cargo.

SDDC Comments on Competition and Performance. The SDDC Commander
disagreed with the statement that including Hawaii/Guam shipping routes under
the existing Universal Services Contract and Regional Domestic Contract should
result in less expensive services. The commander stated under the current USC,
Matson and Horizon submitted identical rates for Kwajalein traffic. In addition,
the carriers’ current Hawaii/Guam shipping agreement rates are lower than their
USC FAR contract rates. If the Hawaii/Guam traffic is added to the current USC
contract, the carriers likely will not offer international rates for this domestic
service. International rates are kept relatively low because carriers cannot charge
more than their international commercial rates, which is affected by foreign
competition. There is no foreign competition in the domestic routes.

Audit Response. The USC and RDC contracts use FAR competitive procedures
and do not allow participating carriers to view rates of other carriers prior to
submitting their best and final offers. Under the Hawaii/Guam shipping
agreement, carriers are allowed to view each others’ rates after the initial bid and
then lower or raise their bid accordingly. Having carriers compete through a
sealed bid process should result in less expensive services. During our audit we
                                     18
received various statements from SDDC personnel stating that rates were reduced
when a new carrier entered the trade lane because carriers were unaware of other
carriers’ rates. In his July 7, 2007, response to the Hawaiian congressional
delegation (Appendix C) the Commander, USTRANSCOM stated he was
confident that a FAR-based agreement was the right thing to ensure adequate
competition for rates, services, and standardized business processes while
benefiting both DoD and the people of Hawaii. The Commander, SDDC also
stated rates under the USC were higher than rates under the Hawaii/Guam
shipping agreement. We expect that the rate charged for a container to travel
from the West Coast to Kwajalein would be higher than a rate for a container
traveling from the West Coast to Hawaii because the distance from the West
Coast to Kwajalein is greater than the distance from the West Coast to Hawaii.




                                   19
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
   Director, Defense Procurement and Acquisition Policy
   Deputy Under Secretary of Defense for Logistics and Material Readiness
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Commands
Commander, U.S. Northern Command
Commander, U.S. Southern Command
Commander, U.S. Joint Services Command
  Inspector General, U.S. Joint Forces Command
Commander, U.S. Pacific Command
Commander, U.S. European Command
Commander, U.S. Central Command
Commander, U.S. Transportation Command
  Commander, Surface Deployment and Distribution Command
Commander, U.S. Special Operations Command
Commander, U.S. Strategic Command



                                          20
Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      21
Surface Deployment and Distribution Command
Comments




                     23
Final Report
 Reference




Revised




               24
     Final Report
      Reference




     Revised and
     Redirected




25
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Benjamin A. Mehlman
Susan J. Lippolis
Marc E. Avers
Amber M. Lyons
Christopher S. Groubert
Meredith H. Johnson
